February 22, 2001

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND
 EXECUTIVE VICE PRESIDENT

SUBJECT: Audit of the Postal Service's FY 2000 Budget Formulation Process (Audit
         Report Number FT-AR-01-006)

This report presents the results of our audit of the Postal Service's fiscal year (FY) 2000
budget formulation process (Project Number 00PA011FROOO). Our initial objective was
to evaluate the effectiveness of the Postal Service Headquarters FY 2001 budget
formulation process and how the process supports and integrates cost containment and
revenue growth in operational plans and goals. However, because the FY 2001 budget
process was not complete at the time of our audit, we audited the FY 2000 budget
formulation process.

We found that the Postal Service's budget formulation process was generally effective
in allocating funds for functional area programs and operations. However, budget
allocations were not based on current and complete analyses and may not have been
sufficient to support the Postal Service's strategic goals, including those for reducing
costs and increasing revenue. In addition, program budget officials did not have
complete financial information to effectively evaluate and manage their programs.

Overall, management disagreed with the conclusion of our report, and with
recommendation four. Further, while management agreed with the remaining
recommendations, their comments were not responsive to recommendations two, three,
and five. Therefore, we consider recommendations two, three, four and five to be
unresolved and plan to pursue them through the formal resolution process. To resolve
these recommendations, we request that management provide an action plan detailing
corrective actions, planned milestones for completing them, and the responsible parties.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any further questions or would like to schedule another meeting, please
contact Lorie K. Siewert, acting director, Financial Statements, or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: John M. Nolan
    John E. Potter
    Gail G. Sonnenberg
    Donna M. Peak
    John R. Gunnels
Audit of the Postal Service's FY 2000                           FR-AR-01-006
 Budget Formulation Process


                                        T A B L E OF CONTENTS
Executive Summary                                                  i

Parti

Introduction                                                       1

    Background                                                     1
    Objective, Scope, and Methodology                              2
    Prior Audit Coverage                                           3

Part II

Audit Resuits                                                      5

  Headquarters Budget Formulation Process                          5
  Recommendations                                                 14
  Management's Comments                                           14
  Evaluation of Management's Comments                             14
Appendix. Management's Comments                                   18
Audit of the Postal Service's FY 2000                                                                FT-AR-01-006
 Budget Formulation Process


                                      EXECUTIVE SUMMARY

introduction                     This report presents the results of our audit of the Postal
                                 Service Headquarters fiscal year (FY) 2000 budget
                                 formulation process. Our audit objective was to evaluate
                                 the effectiveness of the headquarters FY 2001 budget
                                 formulation process and how the process supports and
                                 integrates cost containment and revenue growth in
                                 operational plans and goals.

Results in Brief                  The Postal Service's FY 2000 budget formulation process
                                  was generally effective in allocating funds for the six
                                  functional area programs and operations reviewed.
                                  However, program budget officials^ focused on reducing
                                  costs and did not always prepare budget justifications based
                                  on current and complete analyses. Specifically, 50 of the
                                  100 program budgets we reviewed were not based on
                                  current or complete studies and analyses. Further, a
                                  comprehensive staffing study had not been performed since
                                  1992 to justify the number of personnel authorized and on
                                  board. Thus, program budget officials may not have
                                  allocated organizational resources to most effectively
                                  support the Postal Service's strategic goals, including those
                                  for reducing costs and increasing revenue.

                                  In addition, program vice presidents expressed concerns
                                  regarding the absence of complete financial information
                                  needed to effectively develop, justify, and defend program
                                  budgets. Specifically, they stated that there were a large
                                  number of programs and no mechanism to efficiently
                                  consolidate information on related programs for
                                  consideration during the budget formulation process. They
                                  also stated that there was no accrual accounting system
                                  that recognized revenues paid, but not yet earned, and
                                  costs incurred, but not yet paid. Further, there was no
                                  costing methodology, such as activity-based costing, that
                                  could provide information to better evaluate the cost and
                                  benefits of programs and operations.


Summary of                        For future budget formulations, we recommend program
Recommendations                   budget officials base estimates on updated studies and
                                  analyses, and develop a method to efficiently identify and
                                  consolidate financial information on related programs.

 ' Program budget officials include functional vice presidents, program managers, and budget coordinators.
Audit of the Postal Service's FY 2000                                            FT-AR-01-006
 Budget Formulation Process


                                We also recommend that program budget officials evaluate
                                the benefits of implementing both accrual accounting and
                                cost accounting systems at the program and functional
                                levels.

Summary of                      Management disagreed with the overall conclusion of our
IVIanagement's                  report, but concurred with all but one recommendation.
Comments                        With respect to recommendation four, management stated it
                                does not believe a finance rollup number needs to be
                                developed because the Postal Service's Corporate
                                Information System is capable of consolidating financial
                                information from multiple finance numbers. Further,
                                although management was in agreement with the remaining
                                recommendations, they indicated they would not develop or
                                enforce specific requirements for managing budgets, and
                                that program managers would remain responsible for
                                providing complete program information in the Budget
                                Planning System. In addition, while management agreed to
                                consider accrual and cost accounting systems, they stated
                                current financial challenges limit the upgrades to be
                                implemented in the near future.

Overaii Evaluation of           Based on management's comments, we consider
IVIanagement's                  recommendations two, three, four, and five to be
Comments                        unresolved, and plan to pursue them through the formal
                                audit resolution process. Although management stated that
                                managing budgets and ensuring completeness of budget
                                information is the responsibility of individual program
                                managers rather than Finance, we believe Finance is
                                responsible for the accuracy of the overall budget and for
                                ensuring the completeness of budget submissions. Further,
                                although management believes budgets can be rolled up
                                under one finance number, vice presidents interviewed told
                                us they did not have such access to consolidated financial
                                information. Finally, while management agreed to consider
                                accrual and cost accounting systems, they did not indicate
                                when or how they would implement this recommendation.
Audit of the Postal Service's FY 2000                                                             FT-AR-01-006
 Budget Formulation Process


                                           INTRODUCTION
Bacltground                     In fiscal year (FY) 2000, the Postal Service's total operating
                                budget was $65.3 billion, of which $4.1 billion was
                                budgeted for expenses, and $2.8 billion was for capital.
                                Our audit focused on the headquarters expense and capital
                                budgets.

Budget Formulation              The headquarters budget formulation process is divided
                                primarily between two phases.^ The first phase of the
                                process is referred to as the "Establish Phase." Under this
                                phase, the Establish Team^ develops strategies and goals
                                using the CustomerPerfect!^ concept. The goals are:

                                                            Corporate Goals

                                        Customer        Customer-related goals to create service
                                                        excellence and customer value.


                                                        Employee-related goals to improve
                                        Employee        employee performance and the
                                                        workplace environment.



                                        Business        Business-related goals to promote
                                                        revenue growth and aggressively
                                                        manage costs.

                                The second phase of the process is referred to as the
                                "Deploy Phase." This phase requires program budget
                                officials to develop budgets for those programs that support
                                the Postal Service's corporate goals. In addition, according
                                to program budget officials, the individual program budgets
                                are often adjusted based on the Establish Team's
                                evaluation of the program's relative importance to meeting
                                strategic objectives, as well as the budgetary impact.
                                Further, during the FY 2000 budget process, the Establish
                                Team met on numerous occasions, including a three-day
                                program review session to review each program budget.


 The budget process is comprised of four phases: establish and deploy, which are budget formulation phases and
implement and review, which are budget execution phases.
^A team comprised primarily of senior vice presidents.
•*CustomerPerfect! is the Postal Service's customer-focused, process-driven management system, which establishes
strategic goals and measures of performance.
Audit of the Postal Service's FY 2000                                                FT-AR-01-006
 Budget Formulation Process


                               query program managers about requested spending levels,
                               establish priorities, and finalize program budgets.

                                The process generates two budgets—an annual
                                headquarters expense budget of $4.1 billion and a
                                headquarters capital budget of $2.8 billion. The capital and
                                operating expense budgets are further divided between
                                programs and administrative expenses as follows:

                                                   Headquarters' Budget
                                                        (In billions)

                                                  Programs       Administration       Total

                                Capital             $2.7              $0.1            $2.8
                                Expense              2.7               1.4            $4.1

Budget Reductions               The Postal Reorganization Act of 1970 includes a
                                requirement that postal rates be fair and equitable and cover
                                the cost of operating the Postal Service. Since FY 1999, the
                                Postal Service has been in a cost-cutting mode to offset
                                reduced revenues and delays in the postal rate increase.
                                These reductions, which were coordinated through the
                                Establish Team, were made during the "Implement Phase"
                                of the budget process. Consistent with the cost-cutting
                                mode, in FY 2000 the Postal Service established a "zero
                                growth" parameter during the budget formulation process,
                                which required management committee members not to
                                exceed approved budget requirements for FY 1999.

                                Further, during FY 2000, program budget officials
                                continuously responded to requests to reduce budgeted
                                expenses, in part, because of unexpected increases in costs
                                for fuel, grievance arbitration, and workers' compensation.
                                Finally, the postmaster general launched an initiative,
                                referred to as "Breakthrough Productivity," to reduce the
                                Postal Service's budgeted expenses by $4 billion over the
                                next four years. Using these cost control strategies. Postal
                                Service officials reported reduced budgeted expenses of at
                                least $2.2 billion from October 1999 through June 2000.

Objective, Scope, and           Our initial objective was to evaluate the effectiveness of the
IVIethodoIogy                   headquarters FY 2001 budget formulation process and how
                                the process supports and integrates cost containment and
                                revenue growth into operational plans and goals. However,
Auditor the Postal Service's FY 2000                                                                          FT-AR-01-006
 Budget Formulation Process

                                    because the FY 2001 budget process was not complete at
                                    the time of our audit, we evaluated the FY 2000 budget
                                    formulation process. To conduct our audit, we:

                                    •     Selected all 100 finance numbers related to programs
                                          that were greater than $10 million.

                                    •      Reviewed approved program budgets for 6 of the
                                           14 functional areas,^ which comprised about 75 percent
                                           of the headquarters capital and expense budgets.

                                     u     Examined processes used to develop budget estimates
                                           and reduce budgeted expenses.

                                     •     Reviewed documents related to budget formulation and
                                           budget reductions.

                                     a     Interviewed 108 key headquarters personnel involved in
                                           formulating the budget as follows:

                                              Number of Key Headquarters Personnel Interviewed

                                                                                                        Interviewed
                                         Management Committee Members                                          5
                                         Functional Vice Presidents                                           14
                                         Program and other Managers                                          58
                                         Budget Coordinators                                                 31
                                               Total:                                                       108

                                     We conducted our audit from December 1999 through
                                     February 2001, in accordance with generally accepted
                                     government auditing standards and included tests of internal
                                     controls, as were considered necessary under the
                                     circumstances. We discussed our conclusions and findings
                                     with appropriate management officials and included their
                                     comments, where appropriate.

 Prior Audit Coverage                In December 1999, we completed an audit of the Postal
                                     Service's FY 1999 budget reductions, (referred to as the
                                     "Management Challenge"), Review of Budget Cost
                                     Containment Measures, report number FR-MA-00-001. The
                                     audit disclosed the Postal Service had successfully reduced

 ^ h e six functional areas were judgmentally selected. Areas evaluated comprised the deputy postmaster general,
 chief marketing officer, chief operating officer, chief financial officer, chief technology officer, and the Postal Inspection
 Service.
Audit of the Postal Service's FY 2000                                                 FT-AR-01-006
 Budget Formulation Process


                                its expenses by $675 million, and according to senior
                                officials, the reduction had little impact on customer service.
                                However, we determined the budget reduction process
                                emphasized cutting costs without fully considering the
                                impact on the Postal Service's strategic goals, including its
                                goal of increasing revenue.
Audit of the Postal Service's FY 2000                                               FT-AR-01-006
 Budget Formulation Process


                                        AUDIT RESULTS

Headquarters Budget             The Postal Service's FY 2000 budget formulation process
Formuiation Process             was generally effective in allocating funds for programs and
                                operations for the six functional areas reviewed. However,
                                budget allocations were not based on current and complete
                                analyses and may not have been sufficient to support the
                                Postal Service's strategic goals for reducing costs and
                                increasing revenue. In addition, program budget officials
                                did not have complete financial information to effectively
                                evaluate and manage their programs.

Program Budget                  Approved program budgets often were not based on current
Analyses                        analyses and thus, may not have been sufficient to meet
                                program funding requirements. Program budget officials
                                advised us they often did not update program analyses
                                because the Postal Service had been in a cost-cutting mode
                                since FY 1999. In addition, the Postal Service had
                                established "zero growth parameters" during the FY 2000
                                budget formulation process, which required program officials
                                not to exceed approved funding requirements for FY 1999,
                                For these reasons, program officials stated they placed little
                                emphasis on conducting data analyses to update and
                                support budget estimates.

                                Of the 100 finance numbers and related programs we
                                evaluated, 61 were affected by the Postal Service's cost-
                                cutting mode and zero growth parameter. Following are
                                examples of how programs and strategic goals were
                                affected by decisions for cost-cutting and zero growth:

                                •   A program to measure the delivery of First-Class Mail
                                    was implemented to provide timely, accurate, and
                                    consistent customer service in support of the Postal
                                    Service's strategic "Voice of the Customer" goals. The
                                    program had an initial budget request of $44.4 million for
                                    FY 2000, of which $35.9 million was initially approved.
                                    The budget was later revised to $34.8 million based on
                                    the zero growth parameter. Because of the reduced
                                    budget, program budget officials said they were not able
                                    to effectively measure delivery of remittance mail or
                                    develop a better method for measuring Standard
                                    Mail (A). As a result, the diagnostic sampling for
                                    measuring Priority Mail was reduced. Thus, the reduced
                                    budget increased the risk that funding may not be
                                    sufficient to fully implement the "Voice of Customer" goal
Audit of the Postal Service's FY 2000                                                FT-AR-01-006
 Budget Formulation Process

                                    of improving customer service. An updated study and
                                    analysis may have provided program budget officials
                                    with the pros and cons of various funding levels.

                                •   A program designed to provide more effective
                                    alternatives to dispute resolution processes and improve
                                    the quality of the workplace environment for postal
                                    employees had an initial budget request of $12.9 million.
                                    This program supported the Postal Service's strategic
                                    "Voice of Employee" goals. However, because of the
                                    zero growth parameter, the program budget was
                                    established at $10.9 million. Management later reduced
                                    the program by an additional $2.5 million, but had to
                                    restore the funds to ensure the program could operate
                                    for the entire year. Despite management's decision to
                                    restore funds, without a current study and analysis of the
                                    program, there was an increased risk that the program
                                    may not have been funded at the level necessary to fully
                                    implement the "Voice of Employee" strategy for
                                     improving the workplace environment.

                                a   A third program established to market awareness,
                                    consideration, and choice of postal products and
                                    services to increase revenue, had an initial budget
                                    request of $270 million. This program supported the
                                    Postal Service's "Voice of Business" goals. However,
                                    due to the zero growth parameter, the program budget
                                    estimate was initially reduced to $242 million and,
                                    according to the program budget official, was reduced
                                    again to $154 million. Program budget officials used the
                                    corporate goals of revenue growth and positive net
                                    income to justify this program. The reduced budget may
                                    have increased the risk that funding was not sufficient to
                                    promote awareness of postal products and services in a
                                    way that would fully achieve the "Voice of Business"
                                    goals of revenue growth and positive net income.

                                If program budget officials continue to use zero growth
                                parameters and request budget reductions, they should use
                                current studies and analyses to fully consider the long-term
                                impact on programs and related strategic goals. In addition,
                                program budget officials should prepare flexible or
                                incremental budgets to determine levels of products or
                                services that can be provided at various funding levels.
Audit of the PosUI Service's FY 2000                                                     FT-AR-01-006
 Budget Formulation Process



                               We also noted that program budget officials did not always
                               maintain supporting documentation to explain how budget
                               estimates were developed for 42 of the 100 finance
                               numbers we reviewed. We discussed the issue of
                               supporting documentation in our December 1999 Review of
                               the Budget Cost Containment Measures report, number FR-
                               MA-00-001 . Because the FY 2000 budget was developed
                               during our review of the "Management Challenge," Postal
                               Service officials may not have had sufficient time to
                               implement the suggested corrective actions related to our
                               findings.

Current Program                Program benefits were not always updated and projected
Benefits                       revenues often were not included in the "program narrative"
                               form used to prepare budget justifications. Program benefits
                               included improving customer service, workplace
                               environment, reducing costs, or increasing revenue. This
                               occurred, in part, because program budget officials did not
                               always conduct studies and analyses to update program
                               benefits. As a result, there was no assurance that program
                               benefits were accurate, valid, and attainable. Also, it had
                               become an accepted practice for program budget officials to
                               exclude projected revenue amounts in the financial section
                                of the "program narrative" form. Further, the Postal
                                Service's Budget Planning System did not always have
                               complete information to justify programs and report program
                                benefits.

                               Of the 100 finance numbers related to Postal Service
                               programs that we reviewed, 68 (56 nonrevenue-generating
                               and 12 revenue-generating) were not supported by current
                               studies and analyses to ensure program benefits were still
                               valid and attainable.

                                Previous Office of Inspector General audits illustrate the
                                risks associated with not performing updated analyses for
                                specific nonrevenue generating programs. For example:

                                       The September 24,1999, Prioritv Mail Processing
                                       Center Network report, number DA-AR-99-001,
                                       disclosed end-to-end processing of Priority Mail through
                                       the Network c o s f f l H H B ^ ^ o r e than Priority Mail
                                       processed i n - h o u s ^ ^ n ^ ^ s t a l Service without a
                                       network. Also, the Priority Mail Processing CenJer
                                       Network'
Audit of the Postal Service's FY 2000                                                FT^R-01-006
 Budget Formulation Process


                                    referenced in the contract. Updated studies and
                                    analyses of program benefits and funding needs had not
                                    been performed for this program since April 1997. Thus,
                                    until our audit, program budget officials may not have
                                    been fully aware of the costs versus the benefits of the
                                    program.

                                In addition, program budget officials did not enter program
                                infonnation into the Budget Planning System using the
                                program nan'ative form as required. The form allowed
                                program budget officials to capture the funding, program
                                benefits, and information on how the program supported the
                                Postal Service's overall corporate goals. Of the 15 finance
                                numbers we reviewed related to revenue-generating
                                programs, 12 included program benefits that were not
                                updated or revalidated to ensure projected revenue was
                                based on current assumptions and projections. Further,
                                none of the revenue-generating programs included
                                 projected revenue in the financial information section of the
                                form to illustrate program costs versus benefits. For
                                 example:

                                a A program designed to reduce costs and increase the
                                  value of accountable mall by improving access to
                                  delivery information and inquiry response times had an
                                  approved budget of $73 million. The program narrative
                                  form included a statement that the program would
                                  increase revenue. However, program budget officials did
                                  not include the amount of increased revenue expected
                                  from the program in the financial information secfion of
                                  the form and had not updated the market research study
                                  that initially established the baseline and projected
                                  benefits of the program since 1996. Program budget
                                  officials said they did not update the study because
                                  technology related to this program had changed too
                                  rapidly to track and analyze the information. Thus, it was
                                  not possible to fully determine whether projected
                                  revenue and cost reductions justified the budget of
                                  $73 million.

                                 Q A program designed to generate revenue from the sale
                                   and development of postal real property had an
                                   approved budget of $59 million. Projected revenue
                                   reported in the program benefits section of the form was
                                   $125 million for FY 2000. This projection was a FY 1998
                                   esfimate and was not shown in the financial information
Audit of the Postal Service's FY 2000                                                    FT-AR-01-006
 Budget Formulation Process

                                    section of the program narrative form. According to
                                    program budget officials, projected revenue for FY 2000
                                    was only between $50 million and $70 million. As a
                                    result, program budget officials may not have had
                                    accurate information to effectively make funding
                                    decisions.

                                Because the Postal Service is striving to increase revenue
                                and reduce costs to meet its financial challenges, current
                                studies and analyses would help ensure funds are spent on
                                programs that produce net benefits to the Postal Service.

Completeness of                 Program budget officials did not have complete financial
Program Information             information to effectively evaluate and manage their
                                programs. This occurred because there were a large
                                number of finance numbers and no mechanism to efficiently
                                consolidate information for related programs. In addifion,
                                there was no accrual accounting system at the program
                                level that recognized revenues earned, but not yet received
                                and cost incurred, but not yet paid. Also, there was no cost
                                accounting methodology, such as activity-based costing that
                                facilitated assigning costs to products and services based
                                on cause and effect relationships at the program level. As a
                                result, program budget officials could not make fully
                                informed decisions about the benefits of funding, delaying,
                                or eliminating programs.

                                Program vice presidents stated additional tools would
                                provide more accurate and complete information to make
                                more effective decisions. Specifically, executives stated
                                they need:

                                a A finance "rollup" number that provides an aggregate
                                  total of expenses for related programs.

                                a       An accrual accounting system at the program and
                                        functional levels that provides financial information on
                                        obligations for products and services not yet paid.

                                 Q A costing methodology, such as activity-based costing,
                                   that facilitates an evaluation of program costs versus
                                   benefits at the program and funcfional levels.

                                 Following is a more detailed discussion of the methods and
                                 systems that are currently needed.
Audit of the Postal Service's FY 2000                                                            FT-AR-01-006
 Budget Formulation Process

                                Finance "Roilup" Number. During both the budget
                                formulation and budget reduction processes, program
                                budget officials were responsible for controlling costs and
                                evaluating about 650 finance numbers and related
                                programs. Both processes required program budget
                                officials to make decisions within short fime frames to fund,
                                delay, or eliminate programs.

                                Of the 17 program vice presidents® we interviewed,
                                12 stated they could not easily access information on related
                                programs in other functional areas. Program vice presidents
                                indicated this occurred because no mechanism, such as a
                                finance rollup number, existed that could consolidate
                                budget, expense, and revenue information on related
                                programs within and outside of their funcfional areas.

                                As a result, program vice presidents found it challenging to
                                identify and assess the impact of budget decisions on
                                related programs during both the budget reduction and
                                formulation processes. A finance rollup number or another
                                method to consolidate related program financial information
                                would facilitate more effective program and budget
                                decisions.

                                Accrual Accounting System. Of the 17 program vice
                                presidents we interviewed, 13 stated they maintained
                                informal checkbook systems to track outstanding obligations
                                for products and services that have been received but for
                                which payments had not yet been made. Program budget
                                officials stated they maintained informal systems because
                                the Postal Service did not have an accrual accounting
                                system at the program level that provided information on
                                obligations. They further stated that the informal checkbook
                                allowed them to better manage and defend their budgets
                                during the budget reduction process. Without an accrual
                                accounfing system, finance officials only had information on
                                expenses paid by programs, which did not include
                                obligations and gave the impression that programs had
                                more funding available for reductions or reprogramming
                                than they actually did.

                                To illustrate, during the budget reduction process, finance
                                personnel periodically conducted reviews to assess the
                                relationship between expenses and revenues and to ensure
                                the Postal Service was on target for meeting Its financial

  Program vice presidents included functional vice presidents and members of the management committee.


                                                     10
Audit of the Postal Servlce'e FY 2000                                               FT-AR-01 -006
 Budget Formulation Process


                                goals. As part of these reviews, they determined whether
                                programs were under or over budget. If programs were
                                under budget, program budget officials were asked to return
                                funds for reprogramming or cost reductions. The
                                13 program vice presidents stated that in the instances
                                where they were asked to return funds, their programs
                                appeared to be under budget. However, they actually were
                                not under budget because obligated funds were not
                                reflected in the Postal Service's accounfing system.
                                Instead, program vice presidents showed, in their informal
                                checkbooks, that their programs had already obligated funds
                                for products and services not yet paid.

                                Postal Service officials recognized the Importance of using
                                accrual accounting at the corporate or summary level for
                                selected expenses, liabilities, and revenue—such as
                                employees' salaries and benefits, which is a significant
                                portion of the Postal Service's costs. These transactions,
                                known as "Major Servicewlde Accruals," were computed
                                each accounfing period at the corporate level. However,
                                accruals were not performed at the program and funcfional
                                levels to assist Postal Service officials with making budget
                                and operational decisions.

                                As a result, program budget officials spent additional time
                                and resources to maintain commitment information in
                                informal "checkbooks." If the Postal Service had an accrual
                                accounting system at the program level, it would eliminate
                                the additional fime spent liy program budget officials to
                                maintain informal checkbook systems. Also, it would
                                provide more timely, complete, and accurate informafion for
                                decisions at the program level.

                                Under accrual accounting, costs and revenues are
                                recognized when they are incurred and realized,
                                respectively, and in the fime frame related lo the economic
                                environment in which they occurred. Thus, trends in
                                revenues and expenses could be more accurately projected.
                                In addifion, accrual accounfing provides relevant and
                                important financial information showing relationships that
                                are likely to be important in predicting future operating
                                results.

                                 Cost Accounting Methodology. Program budget officials
                                 did not have adequate cost information to conduct analyses
                                 during the budget formulation process. This occurred, in



                                                11
Audit of the Postal Service's FY 2000                                                     FT-AR-01-006
 Budget Formulation Process

                                   part, because the Postal Service did not have a costing
                                   methodology, such as activity-based costing at the program
                                   level, to fully assess programs and core business
                                   processes. As a result, program budget officials had no
                                   assurance that program benefits exceeded the cost of the
                                   program.

                                   Activity-based costing is a cost accounting methodology that
                                   facilitates the assignment of costs to products and services
                                   based on a cause and effect relationship. The cost
                                   accumulated for a given activity is assigned only to the
                                   products or services that created a demand for that activity.
                                   Therefore, a numlser of experts deem that activity-based
                                   costing provides better information about the true cost of a
                                   product or service than other accounting methods, where
                                   costs are accumulated centrally and allocated to the
                                   products and services using some basis other than a causal
                                    relationship.

                                   In addition, activity-based costing methods provide historical
                                   information about costs that can then be used in predictive
                                   models for budget formulation, improving performance and
                                   aligning available resources to meet strategic goals and
                                   objectives. Of the 17 program vice presidents we
                                   interviewed, 12 stated they could make more informed
                                   decisions to manage programs and develop budgets if they
                                   had a costing methodology, such as activity-based costing.
                                   Prior Office of Inspector General audits of specific programs
                                   also validated the importance of the Postal Service using a
                                   costing methodology, such as activity-based costing. For
                                   example:

                                   •    Our December 3,1999, Cost and Benefit of the
                                        International Collection Program report, number
                                        RG-MA-00-001, disclosed costs for the International
                                        Collection Program exceeded commissions earned
                                        under the program by m | | | | | | m B during the period
                                        January 1997 through September 1999. Also,
                                        98 percent of the marketing and administrative costs of
                                        selling international stamps (the majority of the costs for
                                        the program) had not been charged directly to the
                                        program. Thus, until our review. Postal Service officials
                                        were not fully aware the program was losing money.
                                        After our review the Postal Service discontinued the
                                        program.

 ^ The inception of the program.



                                                     12
Audit of the Postal Service's FY 2000                                                 FT-AR-01 -006
 Budget Formulation Process



                                Q Our March 31, 2000, Breast Cancer Research Stamp
                                  Program report, number RG-AR-00-002, disclosed, in
                                  part, that the Postal Service was required to capture and
                                  report costs incurred to support the program. In order to
                                  do so, the Postal Service developed Excel spreadsheets
                                  to accumulate the costs, because their existing
                                  accounting system did not separately track costs or
                                  revenues for different types of stamps. The reported
                                  cost for this program was $5.1 million. However, even
                                  with these special procedures in place, $836,000 of
                                  program costs were either inconsistently tracked or not
                                  tracked at all.

                                With a costing methodology, such as activity-based costing,
                                the Postal Service can track incurred costs against the
                                revenue for a program to enable a more timely and accurate
                                assessment of programs. More importantly, the Postal
                                Reorganization Act of 1970 includes a requirement that
                                postal rates be fair and equitable and cover the cost of
                                operating the Postal Service.

                                During the audit we noted the Postal Service Is establishing
                                an information platform that has a stated goal of
                                implementing an activity-based costing system.

Personnel                       Program budget officials did not ensure budget estimates for
                                the number of personnel authorized and on board were
                                based on current requirements. Budget estimates for
                                personnel were not current because Postal Service officials
                                had not performed a comprehensive staffing study since
                                1992. As a result, there was no assurance the Postal
                                Service had the optimal number or composition of
                                personnel.

                                The headquarters administration expense budget of
                                $1.4 billion was generally comprised of salaries, wages, and
                                benefits. Postal Service officials had not performed a
                                comprehensive staffing study, but made various personnel
                                requests within the last two years. The requests were
                                primarily for staffing, general information, and grade
                                determination.

                                 We noted during the audit that the Postal Service
                                 established a "Breakthrough Productivity" initiative, which is
                                 a comprehensive and integrated method for accomplishing



                                                 13
Audit of the Postal Service's FY 2000                                              FT-AR-01-006
 Budget Formulation Process


                                productivity improvements. Included in this initiative is a
                                requirement for ongoing assessments to determine whether
                                the Postal Service has excess personnel and personnel in
                                suitable positions to achieve business efficiencies.

Recommendation                  The chief financial officer and executive vice president
                                should coordinate with management committee members to:

                                1. Reinforce the requirement for program budget officials to
                                   update and fully document studies and analyses to
                                   ensure budget cost estimates for programs, related
                                   benefits, and staffing are based on current goals and
                                   strategies.

IVIanagement's                  Management agreed that documentation can be improved,
Comments                        and has reminded program managers of the need for current
                                and complete documentation during the current planning
                                cycle. Management added, that for ongoing corporate
                                activities (i.e., printing stamps and money orders), they
                                expect program managers to exercise judgment to update
                                studies and analyses only when the benefits of updated
                                Information are likely to exceed the costs of obtaining it.

Evaiuation of                   Management's comments were responsive to our
Management's                    recommendation and should address the issues raised in
Comments                        this report.

Recommendation                  The chief financial officer and executive vice president
                                should coordinate with management committee members to:

                                2. Develop methodologies to prepare flexible or incremental
                                   budgets to reduce the need to confinuously respond to
                                   budget reductions.

Management's                    Management agreed that program budget officials should
Comments                        develop flexible budgets capable of responding to a variety
                                of budgetary contingencies, and Indicated that fiexible
                                budgets are prepared at the direction of senior management.
                                Therefore, Finance will not develop or enforce specific
                                requirements for managing budgets.




                                                14
Audit of the Postal Service's FY 2000                                                FT-AR-01-006
 Budget Formulation Process



Evaluation of                   Management's comments were not responsive to our
IVIanagement's                  recommendation. With the financial challenges facing the
Comments                        Postal Service, we believe that Finance should require
                                program managers to develop fiexible budgets to help them
                                better manage and respond to future budget reducfions.
                                Thus, we consider this recommendafion as unresolved and
                                plan to pursue it through the audit resolution process.

Recommendation                  The chief financial officer and executive vice president
                                should coordinate with management committee members to:

                                3. Ensure program budget officials include updated
                                   potential revenue amounts in the financial informafion
                                   section of the "program narrative" to provide complete
                                   program informafion in the Budget Planning System.

IVIanagement's                  Management agreed that documentafion of potential
Comments                        program benefits can be improved and emphasized this
                                requirement in the instructions for the current planning cycle.
                                Management added that it remains the program manager's
                                responsibility to summarize completely and accurately both
                                the costs and benefits of his/her program in the budget
                                planning system. Failure to do so may result in the program
                                not being funded or funded at a reduced level, meaning the
                                system works. Further, program narratives in the system are
                                only a starting point for the Establish Team's review.

Evaiuation of                   Management's comments were not responsive to our
IVIanagement's                  recommendation because they did not indicate how they
Comments                        would ensure program benefits would be captured.
                                Although program managers are responsible for updating
                                program benefits in the Budget Planning System, this
                                system is maintained by Finance, who is responsible for the
                                completeness and accuracy of the official budget. Also,
                                management should be able to rely on having accurate and
                                complete Information in the system to make pertinent
                                program decisions. We view this recommendation to be
                                unresolved and plan to pursue it through the audit resolution
                                process. Accordingly, we request that management provide
                                an action plan, including projected milestones, to show how
                                and when they plan to address this recommendation.




                                                15
A u d i t of the Postal Servlce'e FY 2000                                              FT-AR-01-006
 Budget Formulation Process




Recommendation                     The chief financial officer and executive vice president
                                   should coordinate with management committee members to:

                                   4. Develop a finance "rollup" number or another method to
                                      consolidate program information and provide program
                                      budget officials with related financial program
                                      information.

Management's                       Management did not agree that a finance "rollup" number
Comments                           should be developed and stated that although some
                                   technical expertise was required, the capability exists and
                                   budget coordinators should be able to provide consolidated
                                   financial information to program budget officials.

Evaluation of                       We do not agree with management's comments because
Management's                        the vice presidents interviewed did not have access to
Comments                            financial information that would allow them to quickly assess
                                    the Impact of their decisions on interrelated programs.
                                    Further, management has not demonstrated that this
                                    capability exists or that budget coordinators have the
                                    technical expertise required to consolidate financial
                                    information. Therefore, we view this recommendation as
                                    unresolved and plan to pursue It through the formal audit
                                    resolution process. To resolve this issue, we request that
                                    management provide an action plan, to include timeframes
                                    for completion, confirming that the system is capable of
                                    providing consolidated financial information on interrelated
                                    programs.

 Recommendation                     The chief financial officer and executive vice president
                                    should coordinate with management committee members to:

                                    5. Evaluate the benefits of implemenfing accrual and cost
                                       accounting systems at the program and functional levels
                                       to more effectively provide program budget officials with
                                       related program information.

 Management's                       Management agreed to consider the costs and potential
 Comments                           benefits of accrual and cost accounting systems when they
                                    begin formally evaluating substantial system upgrades.
                                    However, current financial challenges limit the upgrades to
                                    be implemented in the near future.




                                                    16
Audit of the Postal Service's FY 2000                                            FT-AR-01 -006
 Budget Formulation Process



Evaluation of                   Management's comments were not responsive to our
Management's                    recommendation because they did not indicate when they
Comments                        would Implement the recommendation or how they would
                                correct the problem. We believe, as the Postal Service
                                continues to face financial challenges, accrual and cost
                                accounting systems at the program level are necessary to
                                allow program budget officials to make more effective
                                program budget and funding decisions. Therefore, we
                                consider this recommendation as unresolved and plan to
                                pursue it through the audit resolution process.




                                               17
Audit of the Postal Service's FY 2000                                                                                     FT-AR-01 -006
 Budget Formulation Process



                          APPENDIX. MANAGEMENT'S COMMENTS




              M.-t<.f. C t r r t f i W


             UNITED STATES
             POSTAL SERVICE


               January 18, 2001



                MS. KARLA CORCORAN

                SUBJECT: Draft Audit Report - Audit of itie Postal Service's Fiscal Year 2000
                         Budget Forrrulation Process


                We have reviewed the draft report on the Postal Service's fiscal year (FY) 2000 budget process. We
                see nothing in this report, or manaQemenl's response, which contains proprietary or other business
                Infofrration that may be exempt from disclosure under the Freedom of Informetlon Act (FOIA).

                The report sunvnarlzes the informaUon obtained during your examirutlon and raisas poitits regarding
                the compleienass of program documer^tatlon end eftectiveness of our information systems. It
                concludes that the Postal Service may nol heve effecltvely planned, controlled, and allocated
                organizational resources lo invest in and support its strategic goals. As expleined in our response
                dated September l d , 2000, we disagree with this conclusion. A bpslc premise of the repori appears
                to be that failure to fund a program at the level requested Jeopardizes achievement of Postal Service
                strategic goals. This Is not realistic. The Establish Team is responsible for the allocation of limited
                rosourcee and fully considers the impact of budgetary decisions on strategic goals. Ttve report also
                fails lo note that each strategic goal is often Bupportect by more than one program. Funding any
                single program at the requested level does not ensure achievement of a specified goal. Likewise,
                11 is unrealistic to assume that a lower level of spending will prevent achievement of a goal.

                Following are responses to the specific recommendallons contained in Ihe repori.

                1.     Reinforce the requirement for program budget officials to update and fully document
                       studiac and analyses to ensure budget cost estimates for programs, related benefit*,
                       and ttefflng are based on current goalt and «trategl«t.

                       The dnafl rEport noted thai many program descriptions Irt lhe Budget Planning System (BPS)
                       were not complete or current end recommended Ihat we reinforce the requirement tor current
                       studies and analyses of costs, benefit, and stafliiio estimates. We agree that documentation
                       cen be Improved, and have reminded program managers of tha need for current and
                       complete documentation during our current planning cycle. However, it must be noted that
                       many of the programs included in annual expense budgets are for ongoing corporate
                       activltjes such as printing stamps and money orders, maintaining the telecommunications
                       systems, etc. It is unnecessary and cosily to update cost studies or analyses of such
                       ectivities on an annual basis, as recommended in the report. As such, we expect that
                       program managers will exercise judgment and update studies and analyses only when the
                       benefits of updated inromialion are likely lo exceed Ihe costs of obtaining it.

                 2.     Require program officials to prepare flexible or Incremental budget* to reduce the
                        need lo continuously respond to budget reductions.

                        We agree that program managers should dovciop flexible plans capable of responding to a
                        variety of budgetery conlingenciei. It is the responsibility of Individuel program managers to



               J / i I t V u r . fWSIVH-JB011
               WjkVii^anvi GC TCITW »X)

               f"?07JW-e»3<




                                                                      18
Audit of the Postal Service's FY 2000                                                                                    FT-AR-01-006
 Budget Formulation Process




                                                                     -2


                        adjust their spending In accordance with the general or specific direction of senior
                        manegement. Finance wilt not develop or enforce specific requirements as lo how program
                        managers prepare or manags Ihsir budgets; Ihat Is left to the profsssiona) discretion of eacti
                        program manager.

                  3.    Ensure prvgram budget official* Include updated potential revenue amounts In the
                        financial Information section of the "program narrative" to provide complete program
                        Information In lh« Budget Planning System.

                        We agree that documentation of potential program benefits can be improved. Ws have
                        emphasized this requirement in Ihe inBtrucllons for the current planning cycle. However, it
                        remains the program manager's responsibility to summarize com^^etely and accurataiy both
                        the costs end benefits of his/her program In Ihe budget planning system. Failure lo do so
                        can, and oflen does, result in the program not being funded, or funded 8t a reduced level.
                        This means the system vrorks. Further, it should be noted Ihat tha program narratives In the
                        system provide only a starling point for the review process. The Establish Team's reviews of
                        the program often Include additional information not Included in lhe program nan^tives.

                  4.    Develop a finance "rollup" number or another method to consolidate program
                        Information and provide program budget official* with related financial program
                        Information.

                        With respect lo the concern voiced that it (s not possible to consolidate finendsl information
                        on multiple, rolsled programs, we must disagree. The Postal Service's Corporate Information
                        System allows users to consolidate financial data from multiple finance numbers and
                        manipulate itiat data as required. Although the system requires some tschnlcal expertise, the
                        capacity exists and should be within the capability ot budget coordinators. Currently, there
                        are very few programs wilh multiple finance numbers. Consolidated reports are routinely
                        prepared far these.

                  5. Evaluate Ihe tieneflts of ImplemenllnQ accrual and cost accounting systems at the
                     program and functional levels to more effectively provide program budget officials
                     with related program Information.

                        In reviewing the recommendation, we determined that program managers and vice
                        presidents are primarily concerned with tracking commitments. Further, In Informally
                        surveying headquarters budget coordinators, we found that many are setislied with their
                        current, infomial "checkbook" systems. We are continually considering new and enhanced
                        accounting and rinancial planning systems: however, our curent finandal challenges limit the
                        upgrades wa can expect to implement in the near future. When we do begin formally
                        evaluating substantially upgraded systems, we will consider Ihe costs and potential benefits.

              '   - ^             I   •




             t.DonnaM. Peak                   '^




                                                                      19
